   January 21, 2004




Acquisition

Acquisition of the CH-47F
Improved Cargo Helicopter
(D-2004-046)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
Additional Copies

To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit of the Audit Followup and
Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

CJCS         Chairman of the Joint Chiefs of Staff
DCSOPS       Deputy Chief of Staff Operations and Plans
JTA          Joint Technical Architecture
JTA-A        Joint Technical Architecture - Army
LRIP         Low-rate Initial Production
MOA          Memorandum of Agreement
ORD          Operational Requirements Document
USSOCOM      U.S. Special Operations Command
          Office of the Inspector General of the Department of Defense
Report No. D-2004-046                                                   January 21, 2004
   (Project No. D2003AE-0069)

           Acquisition of the CH-47F Improved Cargo Helicopter

                                Executive Summary

Who Should Read This Report and Why? Civil service and military managers who
are specifically involved in the management, support, and oversight of the CH-47F
Improved Cargo Helicopter should read this report because it discusses acquisition issues
that must be addressed before the program progresses further through the acquisition
process.

Background. This report is the first of two reports that discuss acquisition of DoD
heavy-lift helicopters. This report discusses the acquisition of the Army CH-47F
Improved Cargo Helicopter (the CH-47F Program) and the second report will discuss the
acquisition of the U.S. Special Operations Command MH-47G Service Life Extension
Program (the MH-47G Program). The CH-47F Program is a rebuild of the current
CH-47D helicopter that will extend the service life, increase operational performance (lift
capability and range), and provide the cockpit with digital communications and
navigation capability, allowing interoperability on the digital battlefield. Additionally,
the rebuild of the airframe will reduce aircraft vibration through the stiffening of
structural components, which should reduce CH-47F operations and support costs. The
service life extension effort will sustain the heavy-lift capability that the aging CH-47D
fleet provides the Army and bridge the gap until the DoD develops a follow-on aircraft.
The Army estimated the cost of the CH-47F Program at $13.6 billion for 301 CH-47F
aircraft, including $156.2 million for research, development, test, and evaluation;
$5.4 billion for procurement; and $8.0 billion for operations and support.

Results. The Army had not finalized a revision to the 1997 Operational Requirements
Document for the CH-47F to support the Project Manager, Cargo Helicopter’s (the
Project Manager’s) revised acquisition strategy and establish required system
interoperability and training asset requirements. Additionally, the Project Manager did
not submit a waiver request to the Army Director, Enterprise Architecture Acquisition for
non-compliance with standards from the Joint Technical Architecture - Army, and did not
submit the cost-benefit analyses to the Office of the Deputy Assistant Secretary of the
Army for Cost and Economics to support his decision to recapitalize 103 system
components for validation. As a result, the contract for low-rate initial production of the
CH-47F did not include specific CH-47F interoperability requirements that may result in
initial helicopters that do not fully meet warfighter requirements. Additionally, the
CH-47F aircraft may not fully meet the DoD objective for systems to have an open
design. Further, the Office of the Deputy Assistant Secretary of the Army for Cost and
Economics cannot validate for the Army Acquisition Executive the cost-effectiveness of
the Project Manager’s decisions to remanufacture aging components or to purchase new
components without benefit of the cost-benefit analysis. Expediting the review and
approval of the updated Operational Requirements Document will allow the Project
Manager to update the low-rate initial production contract to fully address
interoperability requirements and update acquisition planning documents for the CH-47F.
Submitting a waiver request for noncompliance with standards from the Joint Technical
Architecture - Army will make the Army Acquisition Executive aware of potential
interoperability shortfalls and better able to oversee system interoperability upgrades in
future evolutionary acquisition blocks. Providing the Deputy Assistant Secretary of the
Army for Cost and Economics with the cost-benefit analysis information will enable the
Office of the Deputy Assistant Secretary to validate the Project Manager’s decision to
remanufacture the aircraft components. See the Finding sections of the report for detailed
recommendations.

The Army and the U.S. Special Operations Command are to be commended for initiating
corrective actions during the audit to address audit issues on updating and approving a
draft memorandum of agreement for coordinating development and production of the
CH-47F and MH-47G and for establishing procedures for ensuring prompt
communication of critical information between their administrative contracting offices.
Appendix B provides details on Army and U.S Special Operations Command corrective
actions taken.

Management Comments. The Army Deputy for Acquisition and Systems Management,
Office of the Assistant Secretary of the Army (Acquisition, Logistics, and Technology),
responding for the Army Deputy Chief of Staff for Operations and Plans, the Army
Director of Combat Development, and the Project Manager for Cargo Helicopters,
concurred with the findings and recommendations; therefore, no further comments are
required. Specifically, the Army Deputy for Acquisition and Systems Management
stated that the Army had expedited the review and approval process for the draft
“Operational Requirements Document for the CH-47F Cargo Helicopter, Change 3” and
that the Joint Requirements Oversight Council approval of the document was scheduled
for January 2004. He further stated that the Army had revised the draft Operational
Requirements Document to include the requirement for 10 CH-47F aircraft to support
training. The Army Deputy for Acquisition and Systems Management also stated that the
Project Manager for Cargo Helicopters would include a deliverable for compliance with
the latest Joint Technical Architecture - Army version, or compliance as directed by the
Army Software Blocking requirements definition, in all subsequent contractual efforts
impacting the software, system, or hardware architecture and would address any
noncompliance in accordance with DoD policy. Finally, he stated that the Project
Manager had completed and submitted a component level cost-benefit analysis for the
recapitalizion components to the Deputy Assistant Secretary of the Army for Cost and
Economics for review and validation. (See the Findings sections of the report for a
discussion of management comments and the Management Comments section for the
complete text of comments.)




                                            ii
Table of Contents
Executive Summary                                                               i

Background                                                                      1

Objectives                                                                      2

Findings
     A. Defining System Requirements                                            3
     B. Requesting a Waiver to Using Standards in the Joint Technical
          Architecture - Army                                                   8
     C. Validating the Cost-Benefit Analyses for System Components Selected
          for Recapitalization                                                 12

Appendixes
     A. Scope and Methodology                                                  15
         Management Control Program Review                                     16
         Prior Coverage                                                        16
     B. Corrective Actions Taken During the Course of the Audit                17
     C. Results of Contractor Joint Technical Architecture - Army Compliance
          Analysis                                                             18
     D. Report Distribution                                                    19

Management Comments
     Department of the Army                                                    21
Background

    This report is the first of two reports that discuss acquisition of DoD heavy-lift
    helicopters. This report discusses the acquisition of the Army CH-47F Improved
    Cargo Helicopter (the CH-47F Program) and the second report will discuss the
    acquisition of the U.S. Special Operations Command MH-47G Service Life
    Extension Program (the MH-47G Program). The CH-47F Program is a rebuild of
    the current CH-47D helicopter that will extend the service life, increase
    operational performance (lift capability and range), and provide the cockpit with
    digital communications and navigation capability, allowing interoperability on the
    digital battlefield. Additionally, the rebuild of the airframe will reduce aircraft
    vibration through the stiffening of structural components, which should reduce
    aircraft operations and support cost. The service life extension effort will sustain
    the heavy-lift capability that the aging CH-47D fleet provides the Army and
    bridge the gap until the DoD develops a follow-on aircraft. The CH-47F aircraft’s
    mission is to transport ground forces, supplies, and battle-critical cargo in support
    of all future contingencies. The MH-47G Program is a rebuild of MH-47D and
    MH-47E aircraft in use within the U.S. Special Operations Command
    (USSOCOM). The total production quantity is projected for 337 Chinook
    aircrafts, consisting of 301 CH-47Fs and 36 MH-47Gs. Based on the Vice Chief
    of Staff’s direction, the acquisition communities within the Army and USSOCOM
    developed a memorandum of agreement (MOA) to support planning for the
    development and production of the CH-47F and MH-47G aircraft configurations.
    Appendix B details the MOA between the Army and USSOCOM.

    The Army initiated the CH-47F Program in May 1998, when the Under Secretary
    of Defense for Acquisition and Technology (renamed Acquisition, Technology,
    and Logistics) approved the program for entry into the engineering and
    manufacturing development phase of the acquisition process as a major Defense
    acquisition program and designated the Army Acquisition Executive as the
    milestone decision authority. The Army then awarded Boeing Helicopters an
    engineering and manufacturing development contract for $ 76.1 million. The
    Army Program Executive Officer, Aviation and the Project Manager, Cargo
    Helicopter (the Project Manager) manage the CH-47F Program.

    The Army completed the engineering and manufacturing development contract in
    December 2002, with the delivery of two prototype CH-47F aircraft. Because of
    the increased mission demands for special operations aircraft, the Deputy
    Secretary of Defense issued Program Decision Memorandum I, December 12,
    2002, that required the Army to transfer 16 additional CH-47s to USSOCOM for
    conversion and rebuild to the MH-47G configuration.

    To implement the direction in Program Decision Memorandum I, the Project
    Manager, with Army Acquisition Executive approval, awarded the low-rate initial
    production (LRIP) Lot I contract in January 2003, to produce one CH-47F aircraft
    followed by an option for six MH-47Gs. The LRIP Lot I contract value totaled
    $152.7 million. The Army plans to produce 16 MH-47Gs in LRIP Lot II and
    produce 10 CH-47Fs and 6 MH-47Gs in the first lot of full-rate production.


                                         1
    As a result of the Office of the Secretary of Defense prioritizing MH-47G
    production, the Project Manager expects a 21-month slip (from February 2006 to
    November 2007) in the first unit equipped date for the CH-47F, a schedule
    parameter in the Acquisition Program Baseline. In February 2003, the Project
    Manager submitted a program deviation report to the Under Secretary of Defense
    for Acquisition, Technology, and Logistics regarding the expected slip.

    Because of technological constraints and affordability concerns, the Project
    Manager developed an acquisition strategy to produce the CH-47F aircraft in
    three sequential blocks. The Army Director of Combat Developments defined
    the incremental capabilities to achieve in Blocks 1 and 2 but had not yet defined
    the capabilities for Block 3. The Army estimated the cost of the CH-47F Program
    at $13.6 billion for 300 CH-47F aircraft, including $156.2 million for research,
    development, test, and evaluation; $5.4 billion for procurement; and $8.0 billion
    for operations and support.

Objectives
    The primary objective was to evaluate the overall management of the Army
    CH-47F Improved Cargo Helicopter Program. Because the program was in the
    LRIP Phase, we evaluated management’s preparation of the program for the full-
    rate production phase of the acquisition process. We also evaluated the
    management control program as it related to the audit objective. See Appendix A
    for a discussion of the scope and methodology, the review of the management
    control program, and prior coverage related to the audit objectives.




                                        2
           A. Defining System Requirements
           The Army Director of Combat Developments and the Deputy Chief of
           Staff for Operations and Plans (DCSOPS) had not finalized a revision to
           the 1997 Operational Requirements Document (ORD) for the Improved
           Cargo Helicopter needed to support the evolutionary acquisition strategy
           that the Project Manager implemented and to establish a key performance
           parameter for system interoperability as required by the Chairman, Joint
           Chiefs of Staff. The draft ORD revision also did not include the estimated
           number of CH-47Fs that the Army will require for training as required in
           DoD policy. DCSOPS had not forwarded the revised ORD for Joint
           Requirements Oversight Council approval because of higher workload
           priorities. As a result, the Project Manager cannot modify the contract for
           LRIP units of the CH-47F to include specific interoperability requirements
           that may result in initial helicopters produced that do not fully meet
           planned Block I user requirements. Further, without an approved ORD,
           the Project Manager cannot finalize drafts of other critical program
           documentation, including the Test and Evaluation Master Plan, the
           Command, Control, Communications, Computers, and Intelligence
           Support Plan, and training plans.

Policy and Guidance for Defining System Requirements
    The Chairman of the Joint Chiefs of Staff (CJCS) provides policies and
    procedures for DoD Components to use in defining system requirements in
    ORDs. The Army supplemented this policy with guidance for combat developers
    to use when preparing ORDs for Army systems.

    Joint Chiefs of Staff Policy. CJCS Instruction 3170.01B, “Requirements
    Generation System,” April 15, 2001, provides the policies and procedures the
    Army Director of Combat Developments used to formulate a draft update of the
    1997 ORD for the CH-47F. CJCS Instruction 3170.01B requires that the ORD
    contain operational performance requirements for a proposed weapon system.
    Specifically, CJCS Instruction 3171.01B requires the ORD to define required
    operational performance characteristics in terms of:

       •   system performance parameters, such as range, payload and speed;
           information exchange requirements;

       •   logistics and readiness, including operational availability, and frequency
           and duration of maintenance; command, control, communications,
           computers, and intelligence support standardization;

       •   interoperability, and standardization; and

       •   human systems integration.

    The CJCS revised policies and procedures for identifying, assessing, and
    prioritizing military capability needs in June 2003, with the issuance of
    CJCS Instruction 3170.01C, “Joint Capabilities Integration and Development
                                         3
    System.” CJCS Instruction 3170.01C states that the Joint Staff will accept ORDs
    developed under CJCS Instruction 3170.01B through December 2003. After
    December 2003, the Joint Staff will accept only ORD updates developed in
    accordance with the new Instruction.

    Army Guidance. The Army “Guide for Development of Army Operational
    Requirements Documents,” (the Guide) November 16, 2001, supplements the
    Joint Chiefs of Staff policy by providing guidance tailored to developing ORDs
    within the Army. To provide for consistency and commonality between Army
    ORDs, the Guide references the Army Universal Task List for combat developers
    to use in ORD preparation.

Revising the Operational Requirements Document
    On November 20, 1997, the Army approved the “Operational Requirements
    Document for the Improved Cargo Helicopter Change 2.” Since 1997, significant
    changes have occurred in the CH-47 Program and in DoD policies for managing
    acquisition programs and defining system requirements. Specifically, the Project
    Manager converted to an evolutionary acquisition strategy for CH-47F in
    response to DoD acquisition policy changes that emphasized the use of
    evolutionary acquisition strategies. Also, updates in CJCS Instruction 3170.01B
    require that DoD Components more completely define requirements for system
    interoperability in ORDs. Because of those updates, in 2001 the Army began, but
    had not yet completed, the process to formulate Change 3 of the ORD for
    approval in 2001. However, when updating the ORD, the Army Director of
    Combat Developments did not define the estimated number of CH-47Fs that the
    Army required for training.

    Converting to an Evolutionary Acquisition Strategy. As DoD moves to reduce
    program cycle times through evolutionary acquisition, CJCS Instruction 3170.01B
    states that the ORD will serve as the vehicle for documenting successive
    operational requirements and for managing the scope of the acquisition process.
    CJCS Instruction 3170.01B also requires that DoD Components update the ORD
    as necessary between acquisition milestones. In the draft Change 3 of the ORD,
    the Army added requirements for information exchange, an interoperability key
    performance parameter, and the Global Air Traffic Management capability.
    Those requirements will provide the aircraft with capabilities for situational
    awareness and the ability to function on the digitized battlefield. In addition to
    those increased system capabilities, the Army Director of Combat Developments
    restructured the ORD to implement an evolutionary acquisition strategy for the
    CH-47F Program containing three blocks. The three blocks were:

       •   Block 1. Planned Block 1 improvements to the aircraft included airframe
           rebuild, component recapitalization, avionics architecture, and interim
           digital messaging and situational awareness technology. The draft ORD
           stated that the Army planned to achieve Block I capability in the LRIP
           Phase.

       •   Block 2. Planned Block 2 improvements included all Block 1
           improvements plus the integration of the command and control messaging

                                        4
       and situational awareness capability needed to support the Army Core
       Message set and the integration of the Global Air Traffic Management
       capability. The Army planned to incorporate Block 2 improvements
       during the Block I full-rate production phase based on system availability
       and affordability.

   •   Block 3. The Army had not yet defined the requirements for Block 3.
       The undefined requirements will supplement or fulfill heavy lift helicopter
       mission requirements for the Army Objective Force. The Army plans to
       define Block 3 capability requirements once it has defined the Objective
       Force requirements.

Revising Interoperability Requirements. CJCS Instruction 3170.1B requires
DoD Components to include a key performance parameter for interoperability in
ORDs to define the level of interoperability for the proposed system. In addition,
CJCS Instruction 6212.01B, “Interoperability and Supportability of the National
Security Systems, and Information Technology Systems,” May 8, 2000, details
the methodology for the DoD Components to follow in developing the
interoperability key performance parameter. CJCS Instruction 6212.01B requires
the DoD Components to include a detailed definition of system interoperability
requirements in the ORD by providing a high-level operational concept graphic, a
system interface description, and an interoperability matrix. The high-level
operational concept graphic identifies required top-level joint and combined
external interfaces. The system interface description provides more detail through
identifying legacy, current, and future joint and combined subsystems and
interfaces required to exchange information. The interoperability matrix details
the system’s top-level joint and combined external information exchange
requirements in a matrix format.

The draft ORD included a key performance parameter for information exchange
interoperability requirements for the CH47F that required the aircraft to have
information exchange interoperability with Army, joint, and combined systems in
order to maintain situational awareness and combat effectiveness. As a threshold
for Block I, the draft ORD required that the CH-47F demonstrate the ability to
exchange voice and data messages with the following Army, joint, and combined
tactical nodes: Joint Airborne Command Post, Navy ships, Joint Maneuver and
Maneuver Support Command Post, Allied and Coalition Command Post, Tactical
Air Traffic Services, and Aviation Battalion and Brigade Command Post. For
Block II, the draft ORD required that the CH-47F also have information exchange
interoperability with the Army Airspace Command and Control System as well as
with cargo, utility, attack, and armed reconnaissance helicopters.

Estimating Training Asset Requirements. As a program is further defined
between acquisition milestones, CJCS Instruction 3170.01B requires that the DoD
Components update the requirements documented in the ORD based on the
results of analysis and testing. For training requirements, CJCS Instruction
3170.01B requires that DoD Components estimate the number of systems,
including training units, needed to support the planned force structure. In
processing draft Change 3 of the ORD, however, the Army Director of Combat
Developments staff stated that they had not yet taken action to update training
asset requirements based on the results of analysis and testing determined during

                                    5
     the engineering and manufacturing development phase of the acquisition process.
     Although a July 2002 version of the draft Change 3 of the ORD stated that the
     Army Force Structure Plan would include 13 CH-47Fs for institutional training,
     subsequent revisions of Change 3 dated April 29, 2003, and July 21, 2003, did not
     identify the CH-47Fs needed for training.

Factors Affecting Revision of the ORD
     DCSOPS staff stated that the Joint Chiefs of Staff had originally required the
     Army to update the Change 2 version of the ORD by March 2001. However,
     DCSOPS staff further stated that the Joint Chiefs of Staff granted the Army a
     delay in updating the ORD because the Joint Chiefs had not yet finalized the
     interoperability requirements in CJCS Instruction 3170.01B and the Army was
     still addressing issues relating to recapitilization and aviation transformation.
     Although the Army Director of Combat Developments developed the initial
     version of the Change 3 update of the CH-47F ORD in September 2001, the
     DCSOPS staff stated that the update was not yet finalized for submission to the
     Joint Requirements Oversight Council. DCSOPS staff explained that, as of
     September 2003, the Army was still in the process of coordinating the July 21,
     2003, version of Change 3 with the Joint Chiefs of Staff. Through September
     2003, the Director of Combat Developments staff had responded to comments
     that the Joint Chiefs had collected from officials at the O-6 officer or equivalent
     civilian level at 22 DoD organizations including the Departments of Army, Navy,
     and Air Force, as well as DoD commands and agencies. According to DCSOPS
     staff, once the O-6 level review is completed, the Director of Combat
     Development must respond to a Flag-level review from the organizations
     participating in the O-6 review. After completing the Flag-level review, Director
     of Combat Development must brief the Joint Warfighting Capabilities
     Assessment Team and the Functional Capabilities Board, followed by the Joint
     Capabilities Board, before it can seek Joint Requirements Oversight Council
     approval of ORD Change 3. Finally, DCSOPS staff stated that once the Joint
     Requirements Oversight Council approves Change 3, DCSOPS could submit the
     document to the Army Chief of Staff for approval.

     The Director of Combat Developments staff stated that the delay in the review
     and approval of Change 3 occurred because of higher workload priorities within
     the office of DCSOPS. The DCSOPS staff agreed that their office had given the
     CH-47F Program a lower priority for ORD update approval than for other Army
     weapon system acquisition programs that had more OSD interest or urgency.
     Additionally, the DCSOPS staff stated that non-ORD workload related to military
     actions in Afghanistan and Iraq, changes in personnel, and issues with special
     forces had slowed completion of the ORD approval process for the CH-47F.

     With regard to training asset requirements, the Director of Combat Developments
     staff stated that the July 2002 version of Change 3 did include a requirement for
     13 CH-47Fs for training, however, the staff later determined that further analysis
     was needed to support a firm training asset requirement. As a result, the staff
     removed the training asset requirement from subsequent drafts. In discussions
     with audit staff in August 2003, the Director of Combat Developments staff stated
     that they had performed additional analysis of CH-47F training asset requirements

                                          6
     and planned to update Change 3 of the ORD to include a requirement for 10
     CH-47Fs to support the CH-47F training requirement.

Effect of Delay in Updating the ORD
     As a result of the delay in submitting Change 3 of the ORD for approval, the
     Project Manager cannot modify the LRIP contract to address the more specific
     interoperability requirements defined in the draft ORD. ORD approval and
     subsequent contract modification are needed to prevent the Army from producing
     and fielding CH-47F helicopters that do not fully meet planned Block I user
     requirements. The Army also needs an updated and approved ORD to enable the
     CH-47F program office to finalize other critical program documentation,
     including the Test and Evaluation Master Plan; the Command, Control,
     Communications, Computers, and Intelligence Support Plan; and training
     requirements.

Recommendations and Management Comments
     A.1. We recommend that the Army Deputy Chief of Staff for Operations
     and Plans expedite the review and approval of the draft “Operational
     Requirements Document for the CH-47F Cargo Helicopter, Change 3” to
     allow for joint Flag-level staffing, Joint Chiefs of Staff Joint Requirements
     Oversight Council review, and final Army Chief of Staff approval.

     Management Comments. The Army Deputy for Acquisition and Systems
     Management, Office of the Assistant Secretary of the Army (Acquisition,
     Logistics, and Technology), responding for the Army Deputy Chief of Staff for
     Operations and Plans, concurred, stating that the Army had expedited the ORD
     review and approval process, and that the Joint Requirements Oversight Council
     was scheduled to approve the draft ORD in January 2004.

     A.2. We recommend that the Army Director of Combat Developments
     update the draft “Operational Requirements Document for the CH-47F
     Cargo Helicopter, Change 3” to include the number of CH-47F aircraft that
     are required for training in accordance with Chairman of the Joint Chiefs of
     Staff Instruction 3170.01B, “Requirements Generation System,” April 15,
     2001.

     Management Comments. The Army Deputy for Acquisition and Systems
     Management, responding for the Army Director of Combat Developments,
     concurred, stating that the Army had revised the draft ORD to include a
     requirement for 10 CH-47Fs to support training requirements.




                                        7
           B. Requesting a Waiver to Using
              Standards in the Joint Technical
              Architecture - Army
           The Project Manager did not submit a waiver request to the Army
           Director, Enterprise Architecture Acquisition, as required, when becoming
           aware through a 1999 contractor study that the avionics for the CH-47F
           did not comply with 10 standards in the Joint Technical Architecture -
           Army (JTA-A). Additionally, the Project Manager did not direct the
           contractor to update the study to determine whether the additional avionics
           and software upgrades that the Army added to the CH-47F configuration
           complied with JTA-A standards. Those conditions occurred because the
           Project Manager did not comply with established JTA-A policy for
           submitting waiver requests when using or planning to use alternative
           standards to the JTA-A standards. As a result, the CH-47F Program will
           not fully meet the DoD objective for systems to have an open design that
           supports system interoperability and future block upgrades. Additionally,
           the Army Acquisition Executive was not made aware of the degree of
           system openness or provided information needed to better oversee plans
           for system upgrades in Blocks II and III of the evolutionary acquisition
           strategy for the CH-47F.

JTA-A Usage and Waiver Policy
    The DoD Joint Technical Architecture (JTA) provides the baseline of standards
    with which Army information technology capabilities must conform. The Army
    Acquisition Executive, as the Army Technical Architect, develops and approves
    the Army specific refinements or extensions to the JTA. The JTA standards, plus
    the Army refinements and extensions, make up the JTA-A. Army program
    managers must follow policies that DoD and Army issued regarding use of and
    waiver from the interoperability standards included in the JTA-A.
    DoD Policy. DoD introduced the requirement for program managers to use the
    JTA when developing weapon systems involving information technology
    capabilities, as well as provision for waiver, in the policy memorandum,
    “Implementation of the DoD Technical Architecture,” August 22, 1996. The
    Offices of the Under Secretary of Defense for Acquisition, Technology and
    Logistics and the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) (renamed the Assistant Secretary of Defense
    [Networks and Information Integration]) (the JTA Policy Offices) issued the
    August 1996 memorandum to implement JTA Version 1.0 and to provide DoD
    Components and Component Acquisition Executives with the authority to grant
    waivers to program manager compliance with the JTA where warranted. The
    JTA Policy Offices (that now include the Staff Director for Command,
    Communications, and Computers, Joint Chiefs of Staff) provided additional
    waiver direction in the memorandum “DoD Joint Technical Architecture (JTA)
    Version 2.0,” November 30, 1998, which required program managers to include


                                        8
    in the waiver requests the cost, schedule, and performance impacts that would
    occur if the DoD Component authority did not grant a waiver.

    Since DoD issued the policy memorandums, the JTA Policy Offices have
    formalized JTA implementation and waiver policy. CJCS Instruction 3170.01B
    states that the JTA provides DoD systems with the basis for the needed seamless
    interoperability and requires that program managers, for systems in development,
    comply with the JTA standards. DoD Instruction 4630.8, “Procedures for
    Interoperability and Supportability of Information Technology (IT) and National
    Security Systems (NSS),” May 2, 2002, provides that a DoD Component
    Acquisition Executive or cognizant official may grant a waiver from JTA use
    where the Component identifies the potential negative impacts to cost, schedule,
    or performance.

    Army Policy. Army Regulation 25-1, “Army Information Management,”
    May 31, 2002, defines responsibilities for information management within the
    Army and states that the Army Director of Information Systems for Command,
    Control, Communications, and Computers, will ensure program office compliance
    with the approved JTA-A. Additionally, Army Regulation 25-1 requires that all
    Army developers and program managers design systems within JTA-A
    constraints. It further states that the Army Technical Architect must approve all
    waivers requests to the JTA-A requirements.

Determining the Need for Waiver
    The Project Manager directed Boeing to perform a JTA-A compliance analysis
    for the CH-47F avionics in 1999. The Boeing compliance analysis,
    D724-10030-1, “Improved Cargo Helicopter (ICH) Digitalization Trade Study -
    Joint Technical Architecture - Army (JTA-A) Baseline Version 5.0,” February 18,
    1999, focused on those sections of JTA-A version 5.0 that were applicable to the
    planned aircraft avionics in an agreement between the project management office;
    the Army Digitalization Office; Boeing Helicopters; and Rockwell Collins, the
    major subcontractor for the cockpit avionics. Although the Boeing study
    recognized the advantages of using common standards across systems and
    platforms, Boeing documented that the planned CH-47F avionics were not
    compliant with 10 JTA-A standards as detailed in Appendix C.
    The study provided the following overall reasons for the noncompliances:

       •   some standards were not easily implemented due to the limitations of
           commercially available third-party development tools;

       •   aircraft avionics were commercial off-the-shelf and non-developmental
           items that the contractors (Boeing and Rockwell Collins) selected based
           on cost, capability, schedule, and risk and implementing JTA standards
           would adversely affect all of those selection factors; and

       •   the contractors had implemented some JTA-A standards in prototype
           designs or were evaluating them, but did not consider the standards to be
           mature enough for critical application.


                                        9
    Although Boeing completed the JTA-A compliance analysis for the planned
    CH-47F avionics in 1999, Army Enterprise Architecture staff stated that the
    Project Manager did not submit a waiver request to the Army Director, Enterprise
    Architecture Acquisition, as required in DoD Instruction 4630.8 and Army
    Regulation 25-1. Additionally, the Boeing compliance analysis needed to be
    updated because the Project Manager plans to upgrade CH-47F avionics and
    software to meet the additional performance requirements in the draft Change 3 of
    the ORD. As discussed in Finding A, the draft ORD included requirements for
    information exchange, an interoperability key performance parameter, and the
    Global Air Traffic Management capability.

Following Waiver Policy
    The nonsubmission of the waiver requests to JTA-A requirements resulted from
    the Project Manager not complying with the requirements in DoD Instruction
    4630.8 and Army Regulation 25-1. In July 2003, the Project Manager’s staff
    provided the audit team with a statement that recognized the need to contract for a
    JTA-A compliance analysis and to submit any necessary waiver requests to the
    Army Director, Enterprise Architecture Acquisition.

    Project Manager direction for Boeing to update the JTA-A Army compliance
    analysis for the CH-47F and the Project Manager’s submission of a JTA-A waiver
    request to the Army Director, Enterprise Architecture Acquisition would help the
    Project Manager gain the Army Acquisition Executive’s approval of the design
    baseline for Block I and facilitate the Project Manager and the Army Acquisition
    Executive in planning for the next acquisition blocks of the CH-47F Program.

Summary
    As a result of not fully implementing JTA-A standards, the CH-47F Program may
    not meet the DoD objective for systems to have an open design that supports
    system interoperability requirements and future block upgrades. Specifically, the
    JTA-A provides program managers with the standards and specifications they
    need to enable system interoperability and to support an open system design
    approach, allowing less costly integration of system upgrades. The DoD and the
    Army established JTA waiver policy to provide acquisition decision makers with
    timely notification of instances where cost, schedule, or performance impacts may
    preclude program managers from using specific JTA standards. Through the
    Project Manager’s submission of JTA-A waiver requests, the Army Acquisition
    Executive can be provided information concerning the degree of system openness
    and be in a better position to oversee Project Manager plans for Blocks 2 and 3 of
    the evolutionary acquisition strategy for CH-47F. Until the Project Manager
    updates the JTA-A compliance analysis and determines the cost, schedule, and
    performance impacts of correcting identified JTA-A noncompliances, the Project
    Manager cannot submit waiver requests as required in DoD Instruction 4630.8 to
    identify the affects, if any, on subsequent blocks of the CH-47F acquisition effort.




                                        10
Recommendations and Management Comments
    B. We recommend that the Project Manager, Cargo Helicopters:

           1. Direct Boeing to update the Joint Technical Architecture - Army
    compliance analysis based on the latest planned avionics for the CH-47F
    aircraft and include a cost-benefit analysis of correcting any Joint Technical
    Architecture - Army noncompliances identified in the updated compliance
    analysis.

          2. Use the cost-benefit analysis resulting from implementation of
    Recommendation B.1. to submit necessary waiver requests from Joint
    Technical Architecture - Army requirements to the Army Director,
    Enterprise Architecture Acquisition, as required in DoD Instruction 4630.8,
    “Procedures for Interoperability and Supportability of Information
    Technology (IT) and National Security Systems (NSS),” May 2, 2002.

    Management Comments. The Army Deputy for Acquisition and Systems
    Management, Office of the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology), responding for the Project Manager for Cargo
    Helicopters, concurred, stating that the Project Manager would include a
    deliverable updating the matrix to reflect compliance with the latest approved
    JTA-A version, or compliance as directed by the Army Software Blocking
    requirements definition, in all subsequent contracting efforts impacting the
    software, system, or hardware architecture. He further stated that the Project
    Manager will address any JTA-A noncompliance in accordance with DoD
    Instruction 4630.8.




                                        11
            C. Validating the Cost-Benefit Analyses
               for System Components Selected for
               Recapitalization
            The Project Manager for the CH-47F did not submit the cost-benefit
            analyses supporting his decision to recapitalize 103 system components to
            the Office of the Deputy Assistant Secretary of the Army for Cost and
            Economics for validation as required. As a result, the Office of the
            Deputy Assistant Secretary of the Army for Cost and Economics did not
            have cost information needed to validate whether it was more cost-
            effective for the CH-47F Project Office to remanufacture aging
            components or to purchase new components in developing the Army’s
            total life-cycle cost estimate for the CH-47F Program. The CH-47F
            Project Office’s recapitalization effort represented $7.9 billion of the
            estimated $13.6 billion in life-cycle costs for the CH-47F Program.

Army Recapitalization Policy
     The Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
     and the Acting Army Acquisition Executive issued policy to Army commands
     and activities on the objectives and procedures for implementing the
     Recapitalization Program.

     In the memorandum “Recapitalization Policy,” March 20, 2000, the Assistant
     Secretary states that Army recapitalization of fielded weapons systems is critical
     to maintaining operational readiness and addressing the rising operations and
     support costs associated with aging weapon systems. In the memorandum “Army
     Recapitalization Management Policy: Rebuild and Upgrade the Legacy Force to
     Ensure Operational Readiness,” (the Recapitalization Management Policy),
     April 11, 2001, the Acting Army Acquisition Executive defines the objectives of
     recapitalization as:
        •   extending the service life of recapitalized systems;

        •   reducing the rate of growth of operation and support costs for recapitalized
            systems;

        •   improving reliability, maintainability, safety, and efficiency of
            recapitalized systems and reducing the logistics footprint; and

        •   enhancing warfighting capabilities in selected recapitalized systems where
            needed.

     Additionally, in the Recapitalization Management Policy, the Acting Army
     Acquisition Executive defines the roles and responsibilities for implementing the
     Recapitalization Program. Specifically, the memorandum states that program
     managers are responsible for executing the recapitalization program for their
     designated systems, including planning, programming, budgeting, and execution

                                         12
     of all funding. Further, the policy requires the Army Cost and Economic Analysis
     Center (renamed the Office of the Deputy Assistant Secretary of the Army for
     Cost and Economics) to validate all cost activities, cost-benefit analyses, and cost
     trade-off analyses that program managers prepare to support their recapitilization
     decisions.

Preparing and Submitting Cost-Benefit Analyses
     On February 27, 2001, the Project Manager established a contract requirement for
     Southwest Research Institute to perform a cost-benefit analysis on selected
     CH-47F components for recapitalization. Although the contractor documented
     the analyses, the Project Manager did not provide the Office of the Deputy
     Assistant Secretary of the Army for Cost and Economics with the cost-benefit
     analyses of the 103 components selected for recapitalization for validation.
     In the second quarter of FY 2001, the Vice Chief of Staff of the Army approved
     the recapitalization plan for the Chinook Program. The CH-47F Program was one
     of four recapitalization initiatives that the Army was implementing as part of the
     Chinook Recapitalization Program. The other three Components of the Chinook
     Recapitalization Program included the CH-47D Rebuild and Sustainment
     Program, the T55-GA-714A Engine Upgrade Program, and the CH-47D and F
     Depot Level Reparables Program. In June 2002, the Cargo Helicopter Program
     Management Office submitted the overall Chinook recapitalization plan in the,
     “CH-47 Recapitalization Program Baseline: Rebuild and Upgrade the Legacy
     Force to Ensure Operational Readiness,” through the Assistant Secretary of the
     Army for Acquisition, Logistics, and Technology to the Office of the Deputy
     Assistant Secretary of the Army for Cost and Economics. However, the CH-47
     Recapitalization Program Baseline did not include details of the cost-benefit
     analysis performed in support of the Program Baseline.

Adherence to Recapitalization Policy
     The Project Manager did not submit the cost-benefit analyses supporting his
     decision to recapitalize 103 system components to the Office of the Deputy
     Assistant Secretary of the Army for Cost and Economics for validation because he
     did not comply with requirements in the Army Recapitalization Management
     Policy. Specifically, the Project Manager did not believe that the cost-benefit
     analyses were of value to the Office of the Deputy Assistant Secretary of the
     Army for Cost and Economics. In the Project Manager’s opinion, the cost-benefit
     data were only of value to the CH-47F component engineers who performed the
     trade-off analyses to select the most cost-effective components to recapitalize
     without compromising system operational capabilities.

Need for Validation of Recapitalization Cost-benefit Analysis
     Without having the cost-benefit analysis performed for the 103 components that
     the Project Manager selected for recapitalization, the Office of the Deputy
     Assistant Secretary of the Army for Cost and Economics did not have information

                                         13
    necessary to validate whether it was more cost-effective for the CH-47F Program
    Office to remanufacture the aging components or to purchase new components
    when developing the Army’s total life-cycle cost estimate for the CH-47F
    Program. Because the CH-47F is a remanufacture program, the recapitalization
    of system components is an integral operation of the program and represented
    $7.9 billion of the estimated $13.6 billion in life-cycle costs for the CH-47F
    Program.

Recommendation and Management Comments
    C. We recommend that the Project Manager, Cargo Helicopter submit the
    cost-benefit analyses for the selected 103 recapitalization components to the
    Office of the Deputy Assistant Secretary of the Army for Cost and Economics
    for review and validation in accordance with “Army Recapitalization
    Management Policy: Rebuild and Upgrade the Legacy Force to Ensure
    Operational Readiness,” April 11, 2000.

    Management Comments. The Army Deputy for Acquisition and Systems
    Management, Office of the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology), responding for the Project Manager for Cargo
    Helicopters, concurred, stating that although the CH-47F Program Management
    Office believed a program level Recapitalization Program Baseline document,
    which it had submitted to the Deputy Assistant Secretary of the Army for Cost
    and Economics for validation, provided a more accurate view of the cost-benefits
    of recapitalizing the selected 103 aircraft components, the Program Office had
    also submitted a component level analysis to the Deputy Assistant Secretary for
    validation, as recommended.




                                       14
Appendix A. Scope and Methodology
   We evaluated whether the Project Manager for the CH-47F was effectively
   developing and preparing the program for full-rate production. Consequently, we
   focused our review on the areas of requirements generation, design, test and
   evaluation, and the cost-benefit analysis prepared for the Army Recapitilization
   Program.

   To evaluate whether the Army was effectively managing the CH-47F Program,
   we examined CJCS Instruction 3170.01B, “Requirements Generation System,”
   April 15, 2001; CJCS Instruction 3170.01C, “Joint Capabilities Integration and
   Development System,” June 24, 2003; Army “Guide for Development of Army
   Operational Requirements Documents (ORDs),” November 16, 2001; DoD
   Instruction 4630.8, “Procedures for Interoperability and Supportability of
   Information Technology and National Security Systems,” May 2, 2002; DoD
   Directive 5000.1, “The Defense Acquisition System,” May 12, 2003; DoD
   Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
   2003; “Interim Defense Acquisition Guidebook,” October 30, 2002; CJCS
   Instruction 6212.01B, “Interoperability and Supportability of National Security
   Systems, and Information Technology Systems,” May 8, 2000; “Army
   Recapitalization Management Policy: Rebuild and Upgrade the Legacy Force to
   Ensure Operational Readiness,” April 11, 2000; and the Assistant Secretary of the
   Army memorandum, “Recapitalization Policy,” March 20, 2000.

   We reviewed documentation dated from November 1997 to September 2003 that
   we obtained from the CH-47F Program Office, Redstone Arsenal, Alabama; the
   Technical Applications Program Office, Fort Eustis, Virginia; the U.S. Army
   Aviation Center, Fort Rucker, Alabama; and the Defense Contract Management
   Agency - Boeing, Philadelphia, Pennsylvania.

   We performed this audit from February through October 2003 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Technical Assistance. Two electrical engineers from the Electronics
   Engineering Branch, Technical Assessment Division of the Audit Followup and
   Technical Support Directorate, Office of the Inspector General of the Department
   of Defense, assisted in the audit. The electrical engineers assisted the audit team
   by analyzing the system design effort for the CH-47F Program.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Weapons Systems Acquisition high-risk area.




                                       15
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are efficiently and effectively carried out in accordance with applicable law and to
    evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls that the Army Acquisition Executive established directly
    related to requirements generation, design, acquisition planning, program
    assessments and decision reviews, contracting, and test and evaluation for the
    CH-47F Program.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. The management
    controls were not adequate to ensure that the Project Manager successfully
    designed CH-47F avionics in compliance with the JTA-A to support
    interoperability requirements and received required validation of his economic
    analysis supporting recapitalizing selected system components.
    Recommendations B.1., B.2., and C., if implemented, will ensure adherence to
    regulatory requirements. We will provide a copy of the report to the senior
    official responsible for management controls in the Office of the Assistant
    Secretary of the Army (Financial Management and Comptroller).

    Adequacy of Management Self-Evaluation. The Army Program Executive
    Officer, Aviation required the Project Manager for Cargo Helicopters, one of his
    eight management control assessable units, to perform annual reviews of the
    programs under the Project Manager’s control to satisfy the management control
    requirement for self-evaluation. In his annual statement of assurance to the Army
    Program Executive Officer, the Project Manager stated that the actions supporting
    his statement included, but were not limited to, consideration of audit, inspection,
    and other independent reviews and assurances from his subordinate product
    managers and directors. However, in the self-evaluation, the Project Manager did
    not identify the specific management control weaknesses that the audit identified
    because the Army Program Executive Officer had not required the Project
    Manager to review those areas as part of his self-evaluation.

Prior Coverage
    No prior coverage has been conducted on CH-47F Improved Cargo Helicopter
    during the last 5 years.




                                         16
Appendix B. Corrective Actions Taken During
            the Course of the Audit
   The Army and USSOCOM initiated corrective actions during the audit to address
   audit issues on updating and approving a draft MOA between the Project
   Manager, Cargo Helicopters, and the USSOCOM Product Manager, Technology
   Application Program Office. An updated MOA was needed to enable the
   managers to better coordinate the development and production of the CH-47F and
   MH-47G. Also, the Project Manager and his staff, met with contracting staff to
   emphasize the need for prompt communication of critical information between his
   procurement contracting office and the administrative contracting office
   supporting the Army.

   Updating and Approving Draft MOA. The Army Project Manager and the
   USSOCOM Product Manager revised the draft “Memorandum of Agreement
   Between the Project Manager - The Technology Applications Program Office and
   the Project Manager - Improved Cargo Helicopter (ICH) Program Office,”
   September 27, 2002, to:

       •   specify the new aircraft production profile that Program Decision
           Memorandum-1 mandated,

       •   require Army to provide 30 aircraft to USSOCOM in support of the new
           production profile,

       •   define the induction strategy (aircraft configuration and induction
           schedule) for the 30 aircraft that Army will give up to USSOCOM.

   The revisions to the MOA will enhance coordination between the project offices
   and their supporting organizations and contractors, and help the Army and
   USSOCOM better plan for managing the schedule, technical, and cost risks
   associated with their programs.

   Communicating Critical Contract Related Information. In April 2003, the
   USSOCOM procurement contracting office experienced a month delay in
   receiving notification from the Army administrative contracting office about a
   contract modification for a month delay in inducting four of the seven CH-47D
   aircraft for upgrade to the CH-47F and MH-47G configuration. Consequently,
   according to USSOCOM contracting office staff, the Project Manager met with
   contracting staff to emphasize the need for prompt communication of critical
   information between his procurement contracting office and the administrative
   contracting office supporting the Army. Because the CH-47F and MH-47G
   Programs will share the same contractor production line, the Project Manager
   stated that it is critical for the administrative contracting offices to promptly relay
   important contract related information.




                                         17
Appendix C. Results of Contractor Joint
            Technical Architecture - Army
            Compliance Analysis
   The Boeing compliance analysis on, “Improved Cargo Helicopter (ICH)
   Digitalization Trade Study - Joint Technical Architecture - Army (JTA-A)
   Baseline Version 5.0,” February 11, 1999, showed that the planned CH-47F
   avionics were non-compliant with standards in the following JTA-A Sections:

   JTA-A Section        Standard Title

   2.2.1                Defense Information Infrastructure Common Operating
                        Environment Integration and Runtime Specification version
                        2.0, October 1995

   2.2.2.1.1.2          Language Bindings and Object Linking

   2.2.2.1.4.3          Geospatial Data Interchange, Military Standard - 2407,
                        Vector Product Format

   2.2.2.1.7            Operating System Services

   2.3.1                Defense Information Infrastructure Common Operating
                        Environment

   2.3.2                Service Area Standards for Software Engineering

   2.3.2                Service Area Standards for Operating Systems

   4.2.6                Calendar Date Data Format

   4.3.2                Data Modeling Standard for Object Oriented Programming

   5.2.2.2              DoD Human Computer Interface Style Guide Standard for
                        Tactical System Common Features




                                     18
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff for Operations Plans
Auditor General, Department of the Army
Project Manager for Cargo Helicopters
   Product Manager for the CH-47F

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Contract Management Agency




                                          19
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Department of the Army Comments




                     21
22
23
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

John E. Meling
Harold C. James
Patrick E. Mchale
Bradford C. Green
Vilma R. Sacco
Jamie Bobbio
Wei Chang
Ann A. Ferrante
